Department of Homeland Security
   Ofﬁce of Inspector General

              Processing of Nonimmigrant Worker 

            Petitions in Support of U.S. Marine Guam 

              Realignment Construction Activities





OIG-11-14                                        November 2010
                                                           Office ofInspector General

                                                           U.S. Department of Homeland Security
                                                           Washington, DC 20528


                                                           Homeland
                                                           Security
                        NOV 17 2010


MEMORANDUM FOR:              The Honorable Alejandro Mayorkas
                             Director,
                             U.-.§. Citizenship and Immigration Services
                           ...c~L.~
FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     Final Letter Report: Processing ofNonimmigrant Worker
                             Petitions in Support of u.s. Marine Guam Realignment
                             Construction Activities

Attached for your information is our final letter report, Processing ofNonimmigrant
Worker Petitions in Support of u.s. Marine Guam Realignment Construction Activities.
This report incorporates the formal comments from the Acting Deputy Director, U.S.
Citizenship and Immigration Services.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibilities over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Should you have any questions, please call me, or your staff may contact Anne L.
Richards, Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
Background
In the October 2005 agreement “U.S.-Japan Alliance: Transformation and Realignment
for the Future,” the U.S. Government and Government of Japan agreed to realign U.S.
and Japanese forces throughout the Pacific. As part of this realignment effort, the two
governments agreed to relocate approximately 8,000 U.S. Marines and 9,000 dependents
from Okinawa to Guam by 2014. The transfer is expected to cost an estimated $13
billion and require a substantive upgrade to Guam’s infrastructure. The U.S. Government
expects that these infrastructure upgrades will be conducted by contractors employing an
estimated 23,000 foreign-born construction workers cumulatively through 2014.

The objective of our audit was to determine whether the U.S. Department of Homeland
Security, through its U.S. Citizenship and Immigration Services (USCIS), has the
capability to process and adjudicate an adequate number of H-1B and H-2B temporary
nonimmigrant worker visa petitions to support construction requirements associated with
the Guam Realignment Project.1 The report does not assess the capabilities of the
Department of Labor to process and approve foreign labor certifications or the
Department of State to process and issue temporary nonimmigrant worker visas.

The H visa is a nonimmigrant temporary worker classification. The H visa is job and site
specific and, once approved, the employee is eligible to work at the job for which that
visa was approved. The H visa status may be obtained for up to 6 years for the H-1B
visa2 and up to 3 years for the H-2B visa.

The H-1B is a nonimmigrant visa in the United States under the Immigration and
Nationality Act, section 101(a)(15)(H). It allows U.S. employers to temporarily employ
foreign workers in “specialty” occupations. The regulations define a “specialty
occupation” as requiring theoretical and practical application of a body of highly
specialized knowledge in a field of human endeavor.3 H-1B workers must possess at
least a bachelor’s degree or its equivalent and state licensure, if required to practice in
that field. H-1B work authorization is also strictly limited to employment by the
sponsoring employer. The number of H-1B visas issued annually is capped at 65,000.

The H-2B nonagricultural temporary worker program allows U.S. employers to bring
foreign nationals to the United States to fill temporary nonagricultural jobs. H-2B
petitions can be approved only for nationals of countries that DHS has designated, with




1
  For the purpose of this report, only the H-1B (specialty worker) and H-2B (nonagricultural
temporary/seasonal worker) petitions will be addressed. It is expected that these two visa categories are of
high importance for temporary worker visa petitions associated with the Guam Realignment Project, owing
to their exemptions from the statutory numerical limits.
2
  Exception: An alien beneficiary in a Department of Defense research and development or coproduction
project may be authorized for a 10-year total period of stay.
3
  8 C.F.R § 214.2(h)(4)(ii)



                                                     1

the concurrence of the Secretary of State.4 To qualify for H-2B nonimmigrant
classification, the employer must provide evidence that:

    •	 The need for the prospective workers is temporary, regardless of whether the
       underlying job can be described as permanent or temporary;5
    •	 There are not sufficient U.S. workers who are able, willing, qualified, and 

       available to do the temporary work; and, 

    •	 The employment of H-2B workers will not adversely affect the wages and 

       working conditions of similarly employed U.S. workers. 


More than 14,000 H-2B petitions were adjudicated in fiscal years 2008 and 2009. H-2B
petitioners are not required to provide USCIS with the identity and date of birth of visa
beneficiaries prior to obtaining visa petition approval. The number of H-2B visas that
can be issued annually is capped at 66,000.


Results of Review
USCIS has the personnel, policies and procedures, and infrastructure necessary to process
and adjudicate the estimated number of nonimmigrant temporary worker (H-1B and
H-2B) visa petitions that will be needed to support the Guam Realignment Project.

We did not assess the capabilities of the Department of Labor to process and approve
foreign labor certifications or of the Department of State to conduct the required
beneficiary interviews associated with the issuance of temporary worker visas. We are
conducting a separate review to determine whether USCIS’ policies, processes, and
internal controls governing the adjudication of temporary worker visa petitions address
fraud and national security risks inherent in the visa adjudication process.




4
  Effective January 19, 2010, nationals from the following countries are eligible to participate in the H-2B
program: Argentina, Australia, Belize, Brazil, Bulgaria, Canada, Chile, Costa Rica, Croatia, Dominican
Republic, Ecuador, El Salvador, Ethiopia, Guatemala, Honduras, Indonesia, Ireland, Israel, Jamaica, Japan,
Lithuania, Mexico, Moldova, the Netherlands, New Zealand, Nicaragua, Norway, Peru, Philippines,
Poland, Romania, Serbia, Slovakia, South Africa, South Korea, Turkey, Ukraine, United Kingdom, and
Uruguay. See Identification of Foreign Countries Whose Nationals Are Eligible to Participate in the H-2A
and H-2B Visa Programs, 75 Fed. Reg. 2879, 2880 (January 19, 2010).
5
  The employer’s need is considered temporary if it is a one-time occurrence, a seasonal need, a peak-load
need, or an intermittent need.



                                                     2

USCIS Is Capable of Handling the Expected Increase in H-1B and H-2B
Visas

Volume of H-1B and H-2B Visas

USCIS’ history of processing large numbers of H-1B and H-2B visa petitions indicates
that it should have little difficulty addressing the relatively small volume of temporary
worker petitions expected to be associated with the Guam Realignment Project. For
example, between fiscal years 2008 and 2009, USCIS adjudicated more than 891,0006
temporary worker visa petitions, of which approximately 662,000 (an average of 331,000
petitions annually) were H-1B or H-2B petitions. In contrast, the Guam Realignment
Project is not expected to generate more than 23,000 nonimmigrant worker petitions over
a 5-year period. Effective January 18, 2009,7 DHS removed the requirements for H-2B
visa petitioners to provide the identity of visa beneficiaries outside the United States,
which should further expedite petition processing because adjudicators no longer have to
perform time-consuming background checks of visa beneficiaries originating from
overseas.

Exemptions from Cap Requirements

To ensure that enough visas are available for nonimmigrant workers to support the Guam
Realignment Project, the Consolidated Natural Resources Act of 2008 (Public Law 110-
229) was enacted, exempting H-1B and H-2B nonimmigrant workers slated for Guam
from the cap or established limits for H-1B and H-2B visas. In response to this special
exemption, USCIS issued Memorandum HQ70/6.2.8, Numerical Limitation Exemption
for H Nonimmigrants Employed in the CNMI and Guam, January 29, 2010, to update
field guidance for its Immigration Services Officers responsible for adjudicating benefit
petitions that fit the exemption criteria. Removing the cap limits the risk that an
unexpected surge in applications could delay future Guam-related H-1B and H-2B
processing and adjudications.

USCIS Coordination with the U.S. Department of Defense

On January 20, 2010, we met with the USCIS designated point of contact for the Guam
Realignment Project (Honolulu District Office Director) and other USCIS officials from
the Office of Policy and Strategy and the Directorate of Service Center Operations.
According to the officials, USCIS has no formal roles or responsibilities pertaining to the
project, and officials reported that they have communicated only with the Department of
Defense (DOD) to emphasize the need to for a cap exemption. In addition, they

6
  This number takes into account a variety of temporary worker situations including filing a petition:
(1) seeking original H-1B/H-2B status, (2) seeking a change of status from another benefit category to an 

H-2B or H-1B visa, (3) seeking a time extension(s) for existing H-1B/H-2B visa holders, or (4) H-1B/H-2B

beneficiaries seeking authorization to change jobs. 

7
  Changes to Requirements Affecting H-2B Nonimmigrants and Their Employers, 73 Fed. Reg. 78104,

78106 (December 19, 2008). 




                                                    3

explained that the estimated volume, when compared with regular production, should not
be a “heavy lift” and that responsibility for processing and adjudication of these visa
petitions has been delegated to the USCIS California Service Center. However, USCIS
may enhance the process by contacting DOD to discuss establishing an information-
sharing strategy for communicating results on the volume of adjudicated petitions
associated with the project, to aid DOD in planning and managing construction efforts.

Conclusion

USCIS has the capability necessary to process and adjudicate all temporary
nonimmigrant worker visa petitions needed to meet construction requirements in support
of the Guam Realignment Project, barring any unforeseen circumstances or changes in
USCIS capacity.


Recommendation
We recommend that the Associate Director, Service Center Operations Directorate:

Recommendation: Develop a memorandum of understanding establishing an
information-sharing strategy with the U.S. Department of Defense Joint Guam Program
Office on the number and type of petitions approved, denied, or pending to aid in their
planning and management of Guam Realignment Project construction activities for the
out-years.


Management Comments and OIG Analysis

USCIS concurred with the recommendation and agreed that there is a need for a
memorandum of understanding to establish an information-sharing strategy with the U.S.
Department of Defense Joint Guam Program Office on the number and type of petitions
approved, denied, or pending to aid in their planning and management of Guam
Realignment Project construction activities for the out-years. We consider this
recommendation unresolved and it will remain open until the USCIS provides details and
documentation on actions taken so that we can determine whether these actions
adequately address the substance of our recommendation. We have included a verbatim
copy of the USCIS’ comments in Appendix B.




                                           4

Appendix A
Purpose, Scope, and Methodology

The objective of our audit was to determine whether the U.S. Department of Homeland
Security, through its U.S. Citizenship and Immigration Services (USCIS), has the
capability to process and adjudicate an adequate number of H-1B and H-2B temporary
nonimmigrant worker visa petitions to support construction requirements associated with
the Guam Realignment Project. This report is in response to an inquiry made during a
meeting of the Interagency Coordination Group of Inspectors General for Guam
Realignment.

To accomplish our objective, we:

   •	 Reviewed the Consolidated Natural Resources Act of 2008 (Public Law 110-229)
      to determine guidance applicable to the numerical exemptions for temporary
      nonimmigrant workers to perform work in Guam;

   •	 Reviewed applicable sections of the Code of Federal Regulations establishing the
      policies for alien nonimmigrant workers to obtain temporary employment in the
      United States and its territory under the H-1B and H-2B programs;

   •	 Reviewed USCIS polices and procedures to determine whether adjudication
      guidance was implemented and in compliance with numerical visa limitation
      exemption criteria outlined in the Consolidated Natural Resources Act of 2008;

   •	 Interviewed USCIS senior accountable officials representing the Office of Policy
      and Strategy and the directorates of Service Center Operations and Field
      Operations; and

   •	 Reviewed USCIS production reports to determine the volume of completed
      adjudications across petition form types and applicable visa classifications.
      However, we did not test the validity or reliability of the data used for the reports
      provided.

We performed fieldwork at USCIS facilities in the Washington, DC, area. We conducted
our review between January and April 2010 under the authority of the Inspector General
Act of 1978, as amended. The nature and brevity of this inquiry precluded the use of
normal auditing standards. Therefore, it was not conducted according to generally
accepted government auditing standards.

We appreciate the cooperation by USCIS management and staff in providing the
information and access necessary to accomplish this review.




                                             5

Appendix B
Managements Comments to the Draft Letter Report




                                     6

Appendix C
Major Contributors to This Report

                   Richard T. Johnson, Director, Immigration and Enforcement
                   Michael Talevi, Audit Manager
                   David DeHaven, Auditor-in-Charge
                   Paul Streit, Senior Auditor (Audit Manager)
                   Marissa Weinshel, Program Analyst
                   John C. Chamberlain, Program Analyst
                   Peter Christopher, Program Analyst




                                       7

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Director, U.S. Citizenship and Immigration Services
                      U.S. Citizenship and Immigration Services Liaison
                      Associate Director, Service Center Operations Directorate,
                         U.S. Citizenship and Immigration Services
                      Associate Director, Fraud Detection and National Security
                         Directorate

                      U.S. Department of Defense
                      Chairperson, Interagency Coordination Group (ICG) for Guam
                         Realignment Project
                      Executive Director, Joint Guam Program Office

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                           8

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
